<html>
<title> - Rules for the Committee on Natural Resources</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                         Rules for the Committee
                                    on
                            Natural Resources

                               __________

                      U.S. House of Representatives

                               __________

                        111<SUP>th</SUP> Congress

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               
                         Adopted February 4, 2009

                        Printed for the use of the
                      Committee on Natural Resources
    

                      U.S. House of Representatives

                      Committee on Natural Resources

                        111<SUP>th</SUP> Congress

                   1324 Longworth House Office Building

                       Washington, D.C. 20515-6201

            Telephone: (202) 225-6065      Fax: (202) 225-1931

                               __________

                              (Ratio: 29-20)

               NICK J. RAHALL, II, West Virginia,  Chairman
           DOC HASTINGS, Washington, Ranking Republican Member



Dale E. Kildee, MI                   Don Young, AK
Eni F.H. Faleomavaega, AS            Elton Gallegly, CA
Neil Abercrombie, HI                 John J. Duncan, Jr., TN
Frank Pallone, Jr., NJ               Jeff Flake, AZ
Grace F. Napolitano, CA              Henry E. Brown, Jr., SC
Rush D. Holt, NJ                     Cathy McMorris Rodgers, WA
Raul M. Grijalva, AZ                 Louie Gohmert, TX
Madeleine Z. Bordallo, GU            Rob Bishop, UT
Jim Costa, CA                        Bill Shuster, PA
Dan Boren, OK                        Doug Lamborn, CO
Gregorio Sablan, MP                  Adrian Smith, NE
Martin T. Heinrich, NM               Robert J. Wittman, VA
George Miller, CA                    Paul C. Broun, GA
Edward J. Markey, MA                 John Fleming, LA
Peter A. DeFazio, OR                 Mike Coffman, CO
Maurice D. Hinchey, NY               Jason Chaffetz, UT
Donna M. Christensen, VI             Cynthia M. Lummis, WY
Diana DeGette, CO                    Tom McClintock, CA
Ron Kind, WI                         Bill Cassidy, LA
Lois Capps, CA
Jay Inslee, WA
Joe Baca, CA
Stephanie Herseth Sandlin, SD
John P. Sarbanes, MD
Carol Shea-Porter, NH
Niki Tsongas, MA
Frank Kratovil, Jr., MD
Pedro R. Pierluisi, PR

                      James H. Zoia, Chief of Staff
                  Todd Young, Republican Chief of Staff
                   http://resourcescommittee.house.gov

RULE 1. RULES OF THE HOUSE; VICE CHAIRMEN
  (a) Applicability of House Rules.

 (1) The Rules of the House of Representatives, so far as they are 
applicable, are the rules of the Committee on Natural Resources 
(hereinafter in these rules referred to as the ``Committee'') and its 
Subcommittees.

 (2) Each Subcommittee is part of the Committee and is subject to the 
authority, direction and rules of the Committee. References in these rules 
to ``Committee'' and ``Chairman'' shall apply to each Subcommittee and its 
Chairman wherever applicable.

 (3) House Rule XI is incorporated and made a part of the rules of the 
Committee to the extent applicable.

  (b) Vice Chairmen.--Unless inconsistent with other rules, the Chairman 
shall appoint a Vice Chairman of the Committee and the Subcommittee 
Chairmen will appoint Vice Chairmen of each of the Subcommittees. If the 
Chairman of the Committee or Subcommittee is not present at any meeting 
of the Committee or Subcommittee, as the case may be, the Vice Chairman 
shall preside. If the Vice Chairman is not present, the ranking Member of 
the Majority party on the Committee or Subcommittee who is present shall 
preside at that meeting.

RULE 2. MEETINGS IN GENERAL
  (a) Scheduled Meetings.--The Committee shall meet at 10 a.m. every 
Wednesday when the House is in session, unless canceled by the Chairman. 
The Committee shall also meet at the call of the Chairman subject to 
advance notice to all Members of the Committee. Special meetings shall be 
called and convened by the Chairman as provided in clause 2(c)(1) of 
House Rule XI. Any Committee meeting or hearing that conflicts with a 
party caucus, conference, or similar party meeting shall be rescheduled 
at the discretion of the Chairman, in consultation with the Ranking 
Minority Member. The Committee may not sit during a joint session of the 
House and Senate or during a recess when a joint meeting of the House and 
Senate is in progress.
  (b) Open Meetings.--Each meeting for the transaction of business, 
including the markup of legislation, and each hearing of the Committee or 
a Subcommittee shall be open to the public, except as provided by clause 
2(g) and clause 2(k) of House Rule XI.
  (c) Broadcasting.--Whenever a meeting for the transaction of business, 
including the markup of legislation, or a hearing is open to the public, 
that meeting or hearing shall be open to coverage by television, radio, 
and still photography in accordance with clause 4 of House Rule XI. The 
provisions of clause 4(f) of House Rule XI are specifically made part of 
these rules by reference. Operation and use of any Committee Internet 
broadcast system shall be fair and nonpartisan and in accordance with 
clause 4(b) of House Rule XI and all other applicable rules of the 
Committee and the House.
  (d) Oversight Plan.--No later than February 15 of the first session of 
each Congress, the Committee shall adopt its oversight plans for that 
Congress in accordance with clause 2(d)(1) of House Rule X.

RULE 3. PROCEDURES IN GENERAL
  (a) Agenda of Meetings; Information for Members.--An agenda of the 
business to be considered at meetings shall be delivered to the office of 
each Member of the Committee no later than 48 hours before the meeting. 
This requirement may be waived by a majority vote of the Committee at the 
time of the consideration of the measure or matter. To the extent 
practicable, a summary of the major provisions of any bill being 
considered by the Committee, including the need for the bill and its 
effect on current law, will be available for the Members of the Committee 
no later than 48 hours before the meeting.
  (b) Meetings and Hearings to Begin Promptly.--Each meeting or hearing 
of the Committee shall begin promptly at the time stipulated in the 
public announcement of the meeting or hearing.
  (c) Addressing the Committee.--A Committee Member may address the 
Committee or a Subcommittee on any bill, motion, or other matter under 
consideration or may question a witness at a hearing only when recognized 
by the Chairman for that purpose. The time a Member may address the 
Committee or Subcommittee for any purpose or to question a witness shall 
be limited to five minutes, except as provided in Committee Rule 4(g). A 
Member shall limit his remarks to the subject matter under consideration. 
The Chairman shall enforce the preceding provision.
  (d) Quorums.

 (1) A majority of the Members of the Committee shall constitute a quorum 
for the reporting of any measure or recommendation, the authorizing of a 
subpoena, the closing of any meeting or hearing to the public under clause 
2(g)(1), clause 2(g)(2)(A) and clause 2(k)(5)(B) of House Rule XI, and the 
releasing of executive session materials under clause 2(k)(7) of House Rule 
X. Testimony and evidence may be received at any hearing at which there are 
at least two Members of the Committee present. For the purpose of 
transacting all other business of the Committee, one third of the Members 
shall constitute a quorum.

 (2) When a call of the roll is required to ascertain the presence of a 
quorum, the offices of all Members shall be notified and the Members shall 
have not less than 15 minutes to prove their attendance. The Chairman shall 
have the discretion to waive this requirement when a quorum is actually 
present, or whenever a quorum is secured, and may direct the Chief Clerk to 
note the names of all Members present within the 15-minute period.

  (e) Participation of Members in Committee and Subcommittees.--Any 
Member of the Committee may sit with any Subcommittee during any meeting 
or hearing, and by unanimous consent of the Members of the Subcommittee 
may participate in such meeting or hearing. However, a Member who is not 
a Member of the Subcommittee may not vote on any matter before the 
Subcommittee, be counted for purposes of establishing a quorum or raise 
points of order.
  (f) Proxies.--No vote in the Committee or its Subcommittees may be cast 
by proxy.
  (g) Record Votes.--Record votes shall be ordered on the demand of one-
fifth of the Members present, or by any Member in the apparent absence of 
a quorum.
  (h) Postponed Record Votes.

 (1) Subject to paragraph (2), the Chairman may, after consultation with 
the Ranking Minority Member, postpone further proceedings when a record 
vote is ordered on the question of approving any measure or matter, or 
adopting an amendment. The Chairman shall resume proceedings on a postponed 
request at any time after reasonable notice, but no later than the next 
meeting day.

 (2) Notwithstanding any intervening order for the previous question, when 
proceedings resume on a postponed question under paragraph (1), an 
underlying proposition shall remain subject to further debate or amendment 
to the same extent as when the question was postponed.

 (3) This rule shall apply to Subcommittee proceedings.

  (i) Privileged Motions.--A motion to recess from day to day, a motion 
to recess subject to the call of the Chairman (within 24 hours), and a 
motion to dispense with the first reading (in full) of a bill or 
resolution if printed copies are available, are nondebatable motions of 
high privilege.
  (j) Layover and Copy of Bill.--No measure or recommendation reported by 
a Subcommittee shall be considered by the Committee until two calendar 
days from the time of Subcommittee action. No bill shall be considered by 
the Committee unless a copy has been delivered to the office of each 
Member of the Committee requesting a copy. These requirements may be 
waived by a majority vote of the Committee at the time of consideration 
of the measure or recommendation.
  (k) Access to Dais and Conference Room.--Access to the hearing rooms' 
daises (and to the conference rooms adjacent to the Committee hearing 
rooms) shall be limited to Members of Congress and employees of the 
Committee during a meeting of the Committee, except that Committee 
Members' personal staff may be present on the daises if their employing 
Member is the author of a bill or amendment under consideration by the 
Committee, but only during the time that the bill or amendment is under 
active consideration by the Committee. Access to the conference rooms 
adjacent to the Committee hearing rooms shall be limited to Members of 
Congress and employees of Congress during a meeting of the Committee.
  (l) Cellular Telephones.--The use of cellular telephones is prohibited 
on the Committee dais or in the Committee hearing rooms during a meeting 
of the Committee.
  (m) Motion to go to Conference with the Senate.--The Chairman may offer 
a motion under clause 1 of Rule XXII whenever the Chairman considers it 
appropriate.

RULE 4. HEARING PROCEDURES
  (a) Announcement.--The Chairman shall publicly announce the date, 
place, and subject matter of any hearing at least one week before the 
hearing unless the Chairman, with the concurrence of the Ranking Minority 
Member, determines that there is good cause to begin the hearing sooner, 
or if the Committee so determines by majority vote. In these cases, the 
Chairman shall publicly announce the hearing at the earliest possible 
date. The Chief Clerk of the Committee shall promptly notify the Daily 
Digest Clerk of the Congressional Record and shall promptly enter the 
appropriate information on the Committee's web site as soon as possible 
after the public announcement is made.
  (b) Written Statement; Oral Testimony.--Each witness who is to appear 
before the Committee or a Subcommittee shall file with the Chief Clerk of 
the Committee or Subcommittee Clerk, at least two working days before the 
day of his or her appearance, a written statement of their proposed 
testimony. Failure to comply with this requirement may result in the 
exclusion of the written testimony from the hearing record and/or the 
barring of an oral presentation of the testimony. Each witness shall 
limit his or her oral presentation to a five-minute summary of the 
written statement, unless the Chairman, in consultation with the Ranking 
Minority Member, extends this time period. In addition, all witnesses 
shall be required to submit with their testimony a resume or other 
statement describing their education, employment, professional 
affiliations and other background information pertinent to their 
testimony.
  (c) Minority Witnesses.--When any hearing is conducted by the Committee 
or any Subcommittee upon any measure or matter, the Minority party 
Members on the Committee or Subcommittee shall be entitled, upon request 
to the Chairman by a majority of those Minority Members before the 
completion of the hearing, to call witnesses selected by the Minority to 
testify with respect to that measure or matter during at least one day of 
hearings thereon.
  (d) Information for Members.--After announcement of a hearing, the 
Committee shall make available as soon as practicable to all Members of 
the Committee a tentative witness list and to the extent practicable a 
memorandum explaining the subject matter of the hearing (including 
relevant legislative reports and other necessary material). In addition, 
the Chairman shall make available to the Members of the Committee any 
official reports from departments and agencies on the subject matter as 
they are received.
  (e) Subpoenas.--The Committee or a Subcommittee may authorize and issue 
a subpoena under clause 2(m) of House Rule XI if authorized by a majority 
of the Members voting. In addition, the Chairman of the Committee may 
authorize and issue subpoenas during any period of time in which the 
House of Representatives has adjourned for more than three days. 
Subpoenas shall be signed only by the Chairman of the Committee, or any 
Member of the Committee authorized by the Committee, and may be served by 
any person designated by the Chairman or Member.
  (f) Oaths.--The Chairman of the Committee or any Member designated by 
the Chairman may administer oaths to any witness before the Committee. 
All witnesses appearing in hearings may be administered the following 
oath by the Chairman or his designee prior to receiving the testimony: 
``Do you solemnly swear or affirm that the testimony that you are about 
to give is the truth, the whole truth, and nothing but the truth, so help 
you God?''.
  (g) Opening Statements; Questioning of Witnesses.

 (1) Opening statements by Members may not be presented orally, unless the 
Chairman or his designee makes a statement, in which case the Ranking 
Minority Member or his designee may also make a statement. If a witness 
scheduled to testify at any hearing of the Committee is a constituent of a 
Member of the Committee, that Member shall be entitled to introduce the 
witness at the hearing.

 (2) The questioning of witnesses in Committee and Subcommittee hearings 
shall be initiated by the Chairman, followed by the Ranking Minority Member 
and all other Members, alternating between the Majority and Minority 
parties. In recognizing Members to question witnesses, the Chairman shall 
take into consideration the ratio of the Majority to Minority Members 
present and shall establish the order of recognition for questioning in a 
manner so as not to disadvantage the Members of the Majority or the Members 
of the Minority. A motion is in order to allow designated Majority and 
Minority party Members to question a witness for a specified period to be 
equally divided between the Majority and Minority parties. This period 
shall not exceed one hour in the aggregate.

  (h) Materials for Hearing Record.--Any materials submitted specifically 
for inclusion in the hearing record must address the announced subject 
matter of the hearing and be submitted to the relevant Subcommittee Clerk 
or Chief Clerk no later than 10 business days following the last day of 
the hearing.
  (i) Claims of Privilege.--Claims of common-law privileges made by 
witnesses in hearings, or by interviewees or deponents in investigations 
or inquiries, are applicable only at the discretion of the Chairman, 
subject to appeal to the Committee.

RULE 5. FILING OF COMMITTEE REPORTS
  (a) Duty of Chairman.--Whenever the Committee authorizes the favorable 
reporting of a measure from the Committee, the Chairman or his designee 
shall report the same to the House of Representatives and shall take all 
steps necessary to secure its passage without any additional authority 
needing to be set forth in the motion to report each individual measure. 
In appropriate cases, the authority set forth in this rule shall extend 
to moving in accordance with the Rules of the House of Representatives 
that the House be resolved into the Committee of the Whole House on the 
State of the Union for the consideration of the measure; and to moving in 
accordance with the Rules of the House of Representatives for the 
disposition of a Senate measure that is substantially the same as the 
House measure as reported.
  (b) Filing.--A report on a measure which has been approved by the 
Committee shall be filed within seven calendar days (exclusive of days on 
which the House of Representatives is not in session) after the day on 
which there has been filed with the Committee Chief Clerk a written 
request, signed by a majority of the Members of the Committee, for the 
reporting of that measure. Upon the filing with the Committee Chief Clerk 
of this request, the Chief Clerk shall transmit immediately to the 
Chairman notice of the filing of that request.
  (c) Supplemental, Additional or Minority Views.--Any Member may, if 
notice is given at the time a bill or resolution is approved by the 
Committee, file supplemental, additional, or minority views. These views 
must be in writing and signed by each Member joining therein and be filed 
with the Committee Chief Clerk not less than two additional calendar days 
(excluding Saturdays, Sundays and legal holidays, except when the House 
is in session on those days) of the time the bill or resolution is 
approved by the Committee. This paragraph shall not preclude the filing 
of any supplemental report on any bill or resolution that may be required 
for the correction of any technical error in a previous report made by 
the Committee on that bill or resolution.
  (d) Review by Members.--Each Member of the Committee shall be given an 
opportunity to review each proposed Committee report before it is filed 
with the Clerk of the House of Representatives. Nothing in this paragraph 
extends the time allowed for filing supplemental, additional or minority 
views under paragraph (c).
  (e) Disclaimer.--All Committee or Subcommittee reports printed and not 
approved by a majority vote of the Committee or Subcommittee, as 
appropriate, shall contain the following disclaimer on the cover of the 
report:
  ``This report has not been officially adopted by the (Committee on 
Natural Resources) (Subcommittee) and may not therefore necessarily 
reflect the views of its Members.''.

RULE 6. ESTABLISHMENT OF SUBCOMMITTEES; FULL COMMITTEE JURISDICTION; BILL 
REFERRALS
  (a) Subcommittees.--There shall be four standing Subcommittees of the 
Committee, with the following jurisdiction and responsibilities:

                 Subcommittee on National Parks, Forests 
                             and Public Lands

 (1) Measures and matters related to the National Park System and its 
units, including Federal reserved water rights.

 (2) The National Wilderness Preservation System.

 (3) Wild and Scenic Rivers System, National Trails System, national 
heritage areas and other national units established for protection, 
conservation, preservation or recreational development, other than coastal 
barriers.

 (4) Military parks and battlefields, national cemeteries administered by 
the Secretary of the Interior, parks in and within the vicinity of the 
District of Columbia, and the erection of monuments to the memory of 
individuals.

 (5) Federal and non-Federal outdoor recreation plans, programs and 
administration, including the Land and Water Conservation Fund Act of 1965 
and the Outdoor Recreation Act of 1963.

 (6) Preservation of prehistoric ruins and objects of interest on the 
public domain and other historic preservation programs and activities, 
including national monuments, historic sites and programs for international 
cooperation in the field of historic preservation.

 (7) Matters concerning the following agencies and programs: Urban Parks 
and Recreation Recovery Program, Historic American Buildings Survey, 
Historic American Engineering Record, and U.S. Holocaust Memorial.

 (8) Public lands generally, including measures or matters relating to 
entry, easements, withdrawals, grazing and Federal reserved water rights.

 (9) Forfeiture of land grants and alien ownership, including alien 
ownership of mineral lands.

(10) Cooperative efforts to encourage, enhance and improve international 
programs for the protection of the environment and the conservation of 
natural resources otherwise within the jurisdiction of the Subcommittee.

(11) Forest reservations, including management thereof, created from the 
public domain.

(12) Public forest lands generally, including measures or matters related 
to entry, easements, withdrawals, grazing and Federal reserved water 
rights.

(13) General and continuing oversight and investigative authority over 
activities, policies and programs within the jurisdiction of the 
Subcommittee.

                    Subcommittee on Insular Affairs, 
                           Oceans and Wildlife

 (1) All matters regarding insular areas of the United States.

 (2) All measures or matters regarding the Freely Associated States and 
Antarctica.

 (3) Fisheries management and fisheries research generally, including the 
management of all commercial and recreational fisheries, the Magnuson-
Stevens Fishery Conservation and Management Act, interjurisdictional 
fisheries, international fisheries agreements, aquaculture, seafood safety 
and fisheries promotion.

 (4) Wildlife resources, including research, restoration, refuges and 
conservation.

 (5) All matters pertaining to the protection of coastal and marine 
environments, including estuarine protection.

 (6) Coastal barriers.

 (7) Oceanography.

 (8) Ocean engineering, including materials, technology and systems.

 (9) Coastal zone management.

(10) Marine sanctuaries.

(11) U.N. Convention on the Law of the Sea.

(12) Sea Grant programs and marine extension services.

(13) Cooperative efforts to encourage, enhance and improve international 
programs for the protection of the environment and the conservation of 
natural resources otherwise within the jurisdiction of the Subcommittee.

(14) General and continuing oversight and investigative authority over 
activities, policies and programs within the jurisdiction of the 
Subcommittee.

                     Subcommittee on Water and Power

 (1) Generation and marketing of electric power from Federal water projects 
by Federally chartered or Federal regional power marketing authorities.

 (2) All measures and matters concerning water resources planning conducted 
pursuant to the Water Resources Planning Act, water resource research and 
development programs, and saline water research and development.

 (3) Compacts relating to the use and apportionment of interstate waters, 
water rights and major interbasin water or power movement programs.

 (4) All measures and matters pertaining to irrigation and reclamation 
projects and other water resources development and recycling programs, 
including policies and procedures.

 (5) Indian water rights and settlements.

 (6) Cooperative efforts to encourage, enhance and improve international 
programs for the protection of the environment and the conservation of 
natural resources otherwise within the jurisdiction of the Subcommittee.

 (7) General and continuing oversight and investigative authority over 
activities, policies and programs within the jurisdiction of the 
Subcommittee.

                       Subcommittee on Energy and 
                            Mineral Resources

 (1) All measures and matters concerning the U.S. Geological Survey, except 
for the activities and programs of the Water Resources Division or its 
successor.

 (2) All measures and matters affecting geothermal resources.

 (3) Conservation of United States uranium supply.

 (4) Mining interests generally, including all matters involving mining 
regulation and enforcement, including the reclamation of mined lands, the 
environmental effects of mining, and the management of mineral receipts, 
mineral land laws and claims, long-range mineral programs, and deep seabed 
mining.

 (5) Mining schools, experimental stations and long-range mineral programs.

 (6) Mineral resources on public lands.

 (7) Conservation and development of oil and gas resources of the Outer 
Continental Shelf.

 (8) Petroleum conservation on the public lands and conservation of the 
radium supply in the United States.

 (9) Measures and matters concerning the transportation of natural gas from 
or within Alaska and disposition of oil transported by the trans-Alaska oil 
pipeline.

(10) Rights of way over public lands for underground energy-related 
transportation.

(11) Cooperative efforts to encourage, enhance and improve international 
programs for the protection of the environment and the conservation of 
natural resources otherwise within the jurisdiction of the Subcommittee.

(12) General and continuing oversight and investigative authority over 
activities, policies and programs within the jurisdiction of the 
Subcommittee.

  (b) Full Committee.--The following measures and matters shall be 
retained at the Full Committee:

 (1) Environmental and habitat measures of general applicability.

 (2) Measures relating to the welfare of Native Americans, including 
management of Indian lands in general and special measures relating to 
claims which are paid out of Indian funds.

 (3) All matters regarding the relations of the United States with Native 
Americans and Native American tribes, including special oversight functions 
under Rule X of the Rules of the House of Representatives.

 (4) All matters regarding Native Alaskans and Native Hawaiians.

 (5) All matters related to the Federal trust responsibility to Native 
Americans and the sovereignty of Native Americans.

 (6) Cooperative efforts to encourage, enhance and improve international 
programs for the protection of the environment and the conservation of 
natural resources otherwise within the jurisdiction of the Full Committee 
under this paragraph.

 (7) All other measures and matters retained by the Full Committee, 
including those retained under Committee Rule 6(e).

 (8) General and continuing oversight and investigative authority over 
activities, policies and programs within the jurisdiction of the Committee 
under House Rule X.

  (c) Ex-officio Members.--The Chairman and Ranking Minority Member of 
the Committee may serve as ex-officio Members of each standing 
Subcommittee to which the Chairman or the Ranking Minority Member has not 
been assigned. Ex-officio Members shall have the right to fully 
participate in Subcommittee activities but may not vote and may not be 
counted in establishing a quorum.
  (d) Powers and Duties of Subcommittees.--Each Subcommittee is 
authorized to meet, hold hearings, receive evidence and report to the 
Committee on all matters within its jurisdiction. Each Subcommittee shall 
review and study, on a continuing basis, the application, administration, 
execution and effectiveness of those statutes, or parts of statutes, the 
subject matter of which is within that Subcommittee's jurisdiction; and 
the organization, operation, and regulations of any Federal agency or 
entity having responsibilities in or for the administration of such 
statutes, to determine whether these statutes are being implemented and 
carried out in accordance with the intent of Congress. Each Subcommittee 
shall review and study any conditions or circumstances indicating the 
need of enacting new or supplemental legislation within the jurisdiction 
of the Subcommittee. Each Subcommittee shall have general and continuing 
oversight and investigative authority over activities, policies and 
programs within the jurisdiction of the Subcommittee.
  (e) Referral to Subcommittees; Recall.

 (1) Except as provided in paragraph (2) and for those measures or matters 
retained at the Full Committee, every legislative measure or other matter 
referred to the Committee shall be referred to the Subcommittee of 
jurisdiction within two weeks of the date of its referral to the Committee. 
If any measure or matter is within or affects the jurisdiction of one or 
more Subcommittees, the Chairman may refer that measure or matter 
simultaneously to two or more Subcommittees for concurrent consideration or 
for consideration in sequence subject to appropriate time limits, or divide 
the matter into two or more parts and refer each part to a Subcommittee.

 (2) The Chairman, with the approval of a majority of the Majority Members 
of the Committee, may refer a legislative measure or other matter to a 
select or special Subcommittee. A legislative measure or other matter 
referred by the Chairman to a Subcommittee may be recalled from the 
Subcommittee for direct consideration by the Full Committee, or for 
referral to another Subcommittee, provided Members of the Committee receive 
one week written notice of the recall and a majority of the Members of the 
Committee do not object. In addition, a legislative measure or other matter 
referred by the Chairman to a Subcommittee may be recalled from the 
Subcommittee at any time by majority vote of the Committee for direct 
consideration by the Full Committee or for referral to another 
Subcommittee.

  (f) Consultation.--Each Subcommittee Chairman shall consult with the 
Chairman of the Full Committee prior to setting dates for Subcommittee 
meetings with a view toward avoiding, whenever possible, conflicting 
Committee and Subcommittee meetings.
  (g) Vacancy.--A vacancy in the membership of a Subcommittee shall not 
affect the power of the remaining Members to execute the functions of the 
Subcommittee.

RULE 7. TASK FORCES, SPECIAL OR SELECT SUBCOMMITTEES
  (a) Appointment.--The Chairman of the Committee is authorized, after 
consultation with the Ranking Minority Member, to appoint Task Forces, or 
special or select Subcommittees, to carry out the duties and functions of 
the Committee.
  (b) Ex-officio Members.--The Chairman and Ranking Minority Member of 
the Committee may serve as ex-officio Members of each Task Force, or 
special or select Subcommittee if they are not otherwise members. Ex-
officio Members shall have the right to fully participate in activities 
but may not vote and may not be counted in establishing a quorum.
  (c) Party Ratios.--The ratio of Majority Members to Minority Members, 
excluding ex-officio Members, on each Task Force, special or select 
Subcommittee shall be as close as practicable to the ratio on the Full 
Committee.
  (d) Temporary Resignation.--A Member can temporarily resign his or her 
position on a Subcommittee to serve on a Task Force, special or select 
Subcommittee without prejudice to the Member's seniority on the 
Subcommittee.
  (e) Chairman and Ranking Minority Member.--The Chairman of any Task 
Force, or special or select Subcommittee shall be appointed by the 
Chairman of the Committee. The Ranking Minority Member shall select a 
Ranking Minority Member for each Task Force, or standing, special or 
select Subcommittee.

RULE 8. RECOMMENDATION OF CONFEREES
  Whenever it becomes necessary to appoint conferees on a particular 
measure, the Chairman shall recommend to the Speaker as conferees those 
Majority Members, as well as those Minority Members recommended to the 
Chairman by the Ranking Minority Member, primarily responsible for the 
measure. The ratio of Majority Members to Minority Members recommended 
for conferences shall be no greater than the ratio on the Committee.

RULE 9. COMMITTEE RECORDS
  (a) Segregation of Records.--All Committee records shall be kept 
separate and distinct from the office records of individual Committee 
Members serving as Chairmen or Ranking Minority Members. These records 
shall be the property of the House and all Members shall have access to 
them in accordance with clause 2(e)(2) of House Rule XI.
  (b) Availability.--The Committee shall make available to the public for 
review at reasonable times in the Committee office the following records:

 (1) transcripts of public meetings and hearings, except those that are 
unrevised or unedited and intended solely for the use of the Committee; and

 (2) the result of each roll call vote taken in the Committee, including a 
description of the amendment, motion, order or other proposition voted on, 
the name of each Committee Member voting for or against a proposition, and 
the name of each Member present but not voting.

  (c) Archived Records.--Records of the Committee which are deposited 
with the National Archives shall be made available for public use 
pursuant to House Rule VII. The Chairman of the Committee shall notify 
the Ranking Minority Member of any decision, pursuant to clause 3(b)(3) 
or clause 4(b) of House Rule VII, to withhold, or to provide a time, 
schedule or condition for availability of any record otherwise available. 
At the written request of any Member of the Committee, the matter shall 
be presented to the Committee for a determination and shall be subject to 
the same notice and quorum requirements for the conduct of business under 
Committee Rule 3.
  (d) Records of Closed Meetings.--Notwithstanding the other provisions 
of this rule, no records of Committee meetings or hearings which were 
closed to the public pursuant to the Rules of the House of 
Representatives shall be released to the public unless the Committee 
votes to release those records in accordance with the procedure used to 
close the Committee meeting.
  (e) Classified Materials.--All classified materials shall be maintained 
in an appropriately secured location and shall be released only to 
authorized persons for review, who shall not remove the material from the 
Committee offices without the written permission of the Chairman.
  (f) Record Votes.--In addition to any other requirement of these rules 
or the Rules of the House of Representatives, the Chairman shall make 
available to the public on the Committee's website a record of the votes 
on any question on which a recorded vote is demanded. Such record shall 
be posted no later than two business days after the vote is taken. The 
record shall include:

 (1) a copy of the amendment or a detailed description of the motion, order 
or other proposition; and

 (2) the name of each Member voting for and each Member voting against such 
amendment, motion, order, or proposition, the names of those Members voting 
present, and the names of any Member not present.

RULE 10. COMMITTEE BUDGET AND EXPENSES
  (a) Budget.--At the beginning of each Congress, after consultation with 
the Chairman of each Subcommittee and the Ranking Minority Member, the 
Chairman shall present to the Committee for its approval a budget 
covering the funding required for staff, travel, and miscellaneous 
expenses.
  (b) Expense Resolution.--Upon approval by the Committee of each budget, 
the Chairman, acting pursuant to clause 6 of House Rule X, shall prepare 
and introduce in the House a supporting expense resolution, and take all 
action necessary to bring about its approval by the Committee on House 
Administration and by the House of Representatives.
  (c) Amendments.--The Chairman shall report to the Committee any 
amendments to each expense resolution and any related changes in the 
budget.
  (d) Additional Expenses.--Authorization for the payment of additional 
or unforeseen Committee expenses may be procured by one or more 
additional expense resolutions processed in the same manner as set out 
under this rule.
  (e) Monthly Reports.--Copies of each monthly report, prepared by the 
Chairman for the Committee on House Administration, which shows 
expenditures made during the reporting period and cumulative for the 
year, anticipated expenditures for the projected Committee program, and 
detailed information on travel, shall be available to each Member.

RULE 11. COMMITTEE STAFF
  (a) Rules and Policies.--Committee staff members are subject to the 
provisions of clause 9 of House Rule X, as well as any written personnel 
policies the Committee may from time to time adopt.
  (b) Majority and Nonpartisan Staff.--The Chairman shall appoint, 
determine the remuneration of, and may remove, the legislative and 
administrative employees of the Committee not assigned to the Minority. 
The legislative and administrative staff of the Committee not assigned to 
the Minority shall be under the general supervision and direction of the 
Chairman, who shall establish and assign the duties and responsibilities 
of these staff members and delegate any authority he determines 
appropriate.
  (c) Minority Staff.--The Ranking Minority Member of the Committee shall 
appoint, determine the remuneration of, and may remove, the legislative 
and administrative staff assigned to the Minority within the budget 
approved for those purposes. The legislative and administrative staff 
assigned to the Minority shall be under the general supervision and 
direction of the Ranking Minority Member of the Committee who may 
delegate any authority he determines appropriate.
  (d) Availability.--The skills and services of all Committee staff shall 
be available to all Members of the Committee.

RULE 12. COMMITTEE TRAVEL
  In addition to any written travel policies the Committee may from time 
to time adopt, all travel of Members and staff of the Committee or its 
Subcommittees, to hearings, meetings, conferences and investigations, 
including all foreign travel, must be authorized by the Full Committee 
Chairman prior to any public notice of the travel and prior to the actual 
travel. In the case of Minority staff, all travel shall first be approved 
by the Ranking Minority Member. Funds authorized for the Committee under 
clauses 6 and 7 of House Rule X are for expenses incurred in the 
Committee's activities within the United States.

RULE 13. CHANGES TO COMMITTEE RULES
  The rules of the Committee may be modified, amended, or repealed by a 
majority vote of the Committee, provided that 48 hours' written notice of 
the proposed change has been provided each Member of the Committee prior 
to the meeting date on which the changes are to be discussed and voted 
on. A change to the rules of the Committee shall be published in the 
Congressional Record no later than 30 days after its approval.

RULE 14. OTHER PROCEDURES
  The Chairman may establish procedures and take actions as may be 
necessary to carry out the rules of the Committee or to facilitate the 
effective administration of the Committee, in accordance with the rules 
of the Committee and the Rules of the House of Representatives.

</pre></body></html>
